6950
UNITED STATES SUPREME COURT
1
NO.
supreme Court, U.S.
FILED

IN RE JOHN POULLARD
Petitioner
Versus

JAN 13 2021
OFFICE OFTHE CLERK

LYLE W. CAYCE
CLERK OF COURT
UNITED STATES COURT
OF APPEALS FIFTH CIRCUIT
Respondent

PETITION FOR WRIT OF MANDAMUS AGAINST UNITED STATES COURT OF
APPEALS 5TH CIRCUIT CLERK OF COURT NO. 01-30587 FROM THE U.S. DISTRICT
COURT MIDDLE DISTRICT OF LOUISIANA 94-CV-777 JUDGE JAMES BRADY
• *.* .

RESPECTFULLY SUBMITTED:

JOHN POULL
Camp D, Hawk
Louisiana State Prison
Angola, LA 70712
l

RECEIVED
JAN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURTl/g

QUESTION PRESENTED
1. Can the United States District Court of Appeals 5m Circuit Clerk of Court refuse to file
my FRCP(60)(B)(4) motion for relief from the 2-1 decision judgment, when that
judgment was made by the United States Court of Appeal 5th Circuit and the judgment is
being attacked as violation of the United States Const Amend. 14 and as void in violation
of U.S. Const. Art. 3 Section 1, 2, et seg defect to notice, a defect in court of appeal
subject matter jurisdiction is an obligation for the U.S. Conrt of Appeals 5fil Cir. Judges.
See Bender v. WilliamsportAreaSchool District 106 S.Ct. 1326?
2* Can a FRCP 60(B)(4) Motion for Relief of the U.S. Court of Appeals 5th Circuit
Judgment as void be filed directly in the U.S. Court of Appeal 5th Cir. when that is the
court that made the void judgment.
3. Do the United States District Court for the Middle District of Louisiana have subject
matter jurisdiction over a FRCP 60B)(4) motion attacking a judgment made by U.S.
Court of Appeal 5 th Circuit as void?
PARTIES
John Poullard petitioner, Lyle W. Cayce Cleric of Court for the U.S. Court of Appeals 5th
Cir., Louisiana Attorney General Jeff Landry

2

TABLE OF AUTHORITIES
Bender v. Area School District. 106 S.Ct. 1326; MSPA Claims 1 LLC v. Tenet Fla Lie.
918 F. 3d. 1312, 1318 (11* Cir. 2019); Habitat EDIJC Ctr v. TJ.S. Forest Sen 607 E3d 453,
457(7* Cir. 2010); Brilev v. Hilidalgo. 981 F.2d 246(5* Cir. 1993); Aetna Life Inc Hartford v.
Haworth. 300 U.S. 227, 240, 57 S.Ct. 416; U.S. Aid Funds Inc V. Espinasa 599 U.S. 260, 27071.

DECISION BELOW
1.

Appendix-1 is the letter from the U.S. Court of Appeals 5* Circuit telling me they are

refusing to file my FRCP 60(B)(4) Motion for Relief from the U.S. Court of Appeal 5* Circuit
2-1 Decision Judgment
2.

Appendix-2 Is the Motion under FRCP 60(B)(4) with attachments that the U.S. Court of

Appeals 5 th Cir. Cleric of Court refused to file.

JURISDICTION
U.S. Const. Art. 3 Section 1,2 standing
U.S. Const. Amend 1st and 14*
FRCP 60(BX4)
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Const. 1st Amend., U.S. Const. Art. 3 Section 1,2. FRCP 60(B)(4) Motion for Relief of the
2-1 Decision Judgment by the U.S. Court of Appeals 5* Cir.

3

STATEMENT OF CASE
Hie U.S. Court of Appeal 5 th Cir. Refused to file my FRCP 60(B)(4) Motion, Directlly
Mo the U.S. Court of Appeal 5tn Circuit Attacking that sane court judgment as a violation of
U.S. Const. Amend. 14& and as void where that is the same court that made void judgment.
The Clerk of Court wrote me the attached letter Appendix-1 and told me they would not
file the motion because that motion can only be filed in the United States District Court Even
when the motion is attacking a U.S. Appeal Court Judgment as void.
I have been denied standing under U.S. Const. Art. 3, Section 12 and denied access to
court U.S. Const. Amend. 1st. To obtain $750,000 that was wrongfully taken from me of punitive
damages in a 2-1 decision judgment sue sponte after the same 2 judges upheld the jury verdict
and found no error on the district court judgment of $750,000 of punitive damages. Letter from
U.S. Court ofAppeals 5th Circuit dated 10-13-20. Attached Appendix-1.
BASIS FOR FEDERAL JURISDICTION
The U.S. Court of Appeals 5th Circuit Clerk of Court violated United States Const. 1st
Amend. Access to the Court, U.S. Const. Art. 3 Section 1, 2 standing to file FRCP 60(B)(4)
Motion Attacking the U.S. Court ofAppeals 5 th Circuit void judgment directly into that court.

REASON TO GRANT WRIT
The United States District Court for the Middle District of Louisiana have no subject
matter jurisdiction over the U.S. Court of Appeal 5 th Circuit under FRCP 60(B)(4) Motion to
Vacate the Void Judgment by the U.S. Court of Appeal Fifth Circuit.

4

Petitioner John Poullard have standing to file the FRCP 60(B)(4) motion attacking the
U.S. Court of Appeal 5® Circuit void judgment directly into that same court, that wrongfully took
$750,000 sue sponte of punitive damages awarded to petitioner by a 12 member jury without any
error on punitive damages. See MSPA Claims 1. LLC v. Tenet Fla Inc. 918 F.3d 1312, 1318 (11
Cir. 2019).
By 2-1 decision judgment the U.S. Court of Appeal 5® Circuit upheld the jury verdict on
liability and found no error on the $750,000 punitive damages jury award and went against the
dissenting judge and sue sponte vacated the $750,000 of punitive damages violated U.S. Const.
Amend. 14 and U.S. Const. Art. 3 Section 1, 2. The U.S. Court of Appeal 5® Circuit Clerk of
Court denied petitioner access to the court by refusing to file the FRCP 60(B)(4) motion directly
into the Court of Appeal 5® Circuit violated U.S. Const. 14® Amend, and U.S. Const. Art.3
Section 1,2.
Petitioner have a U.S. Const First Amend. Right to file his FRCP 60 (B)(4) Motion
Attacking the Court of Appeals, U.S. Court of Appeal 5® Circuit Judgment as Void FRCP 60 (B)
(4) directly into that Court. See Briley v. Hildalgo. 981 F.2d 246 (5® Cir. 1993); The court held:
there is no time limit on an attack on a judgment as void FRCP 60(B)(4). See Bender v. Area
School District. 106 S.Ct. 1326, Court of Appeal Obligation to notice Defect in subject matter
jurisdiction.

CONFLICT WITH DECISION OF OTHER COURTS
The letter of October 13, 2020 by the U.S. Court of Appeals 5® Circuit Clerk of Court
refusing to file petitioner FRCP 60(BX4) motion directly into the U.S. Court of Appeals 5®
Circuit attacking that same court 2-1 decision as in violation of U.S. Const. Amend. 14 and U.S.

5

Const Art. 3 Section 1, 2 and as void is in conflict with U.S. Const. Amend. 1, U.S. Const. Art. 3
Section 12, FRCP 60(B)(4) United States Supreme Court ruling in Aetna Life Ins Co. Hartford
Conn v Haworth. 300 U.S. 227, 240, 57 S.Ct. 461; MSPA Claims 1 LLC v. Tenet Fla Inc.. 918
F.3d 1312, 1318 (11* Cir. 2019); United Student Aid Funds Inc v. Espinasa 559 U.S. 260, 27071 (2010); Brilev v. Hildaleo. 981 F.2d 246 (5th Cir. 1993) Benda- v. Williamsport Area School
District. 106 S.Ct. 1326.

IMPORTANCE OF THE QUESTION PRESENTED
Can the U.S. Court of Appeal 5th Cir. Refuse to file a FRCP 60(BX4) motion for relief of
that same court judgment and denied petitioner access of court.
Do the U.S. District Court for the Middle District of Louisiana have subject matter
jurisdiction on a FRCP 60(B)(4) motion attacking the U.S. Court of Appeal 5th Circuit judgment
as void.
The question is important because there is no time limit to attack a judgment as void. See
Brilev v. Hildaco. 981 F.2d 246 (5th Cir. 1993).
CONCLUSION
Wherefore, the reasons assigned in this writ of mandamus it should be granted ordering
the Clerk of Court for the U.S. Court of Appeal 5th Circuit to file the FRCP 60(B)(4) motion and
affidavit.

6

APPENDICIES
1. Letter dated 10-13-2020 from the U.S. Court of Appeals 5th Circuit Clerk of Court
refusing to file petitioner FRCP 60(B)(4) motion into that court.
2. Petitioner FRCP 60(B)(4) motion to be filed directly into the U.S. Court of Appeals 5th
Circuit attacking that court 2-1 decision judgment as void.
Respectfully submitted:
&

hn Poullard #98999
'Camp D, Hawk
Louisiana State Prison
Angola, LA 70712

CERTIFICATE OF SERVICE
I petitioner certify that I have served a copy of this Writ of Mandamus upon Attorney
General Jeff Landry P.O. Box 94005, Baton Rouge, LA 70804, Lyle W. Cayce Clerk of Court
U.S. Court of Appeals 5th Circuit, 600 S. Maestri Place, New Orleans, LA 70130-3408, U.S.
District Court M.D. La. 777 Florida St., Baton Rouge, LA 70802 by U.S. Postal Mail and
Electronic filing this ) Q~ day of

202f

Xrfm Poullard #98999

DECLARATION
The facts in the above certificate of service is true and correct I swear under the penalty
of perjury 28 U.S.C. Section 1746.

FILED
U.S. D!ST. COURT
UNITED STATES DISTRICT COURiiDLE D.ST OF LA.
MIDDLE DISTRICT OF LOUISIANA-' I

n

6 W
01*1

IG= 26

SIGN.

by uz- J.:

JOHN POULLARD
CIVIL ACTION
VERSUS
NO. 94-777-D
JOSEPH TURNER, ET AL
RULING ON MOTIONS FOR NEW TRIAL, FOR SANCTIONS,
TO WITHDRAW MOTIONS, FOR ORAL ARGUMENT AND FOR
TEMPORARY RESTRAINING ORDER
This matter is before the court on several post-trial motions filed by both
plaintiff and defendants. Jurisdiction remains with this court. There is no need for
oral argument and as such plaintiffs motion for oral argument (doc.284) is hereby
DENIED.
On March 21,2001, plaintiff John Poullard moved for a temporary restraining
order against Burl Cain, the Warden at Louisiana State Penitentiary requesting a
move due to alleged continued harassment at the hand or direction of defendant
Joseph Turner. In response, the Louisiana State Penitentiary transferred Poullard
to another institution, namely Wade Correctional in Homer, Louisiana. As a result,
Poullard’s motion (doc. 286) is DENIED as moot.
Plaintiff has moved to withdraw several previously filed motions and there is
no opposition by the defendants. As such, the motion to withdraw (doc. 283) is

Dkt.&enWu

DATEjfcl^/ii—-• C Qsf^W
NOTICE MAILED TO:
DATE.

jjj£

1

initials

docket#

hereby GRANTED.
Plaintiff has moved for sanctions against the defendants’ attorney Andre
Castaing on three occasions contesting argument made by Castaing in the motion
for new trial. Those motions have no merit and accordingly the motions (docs. 274,
276 and 282) are hereby DENIED.
Defendants move for a new trial or alternatively they re-urge the motion for
judgment as a matter of law. They argue their motion citing both legal error and jury
error.
Legal Error
Defendants contest three evidentiary rulings during the course of the trial and
urge that these errors entitle them to a new trial on all issues. First, they contend
that the court committed error when it excluded from evidence an April 28, 1994
mental health report regarding plaintiff Poullard and that error effected their
substantial right to present evidence that Poullard pre-planned the incident. At the
trial, however, when plaintiff objected to the evidence as being irrelevant, counsel
for the defendan ts did not offer the evidence to show that Poullard pre-planned the
incident Instead, counsel argued that it was offered to show that the mental health
workers did not see Poullard as a threat to either himself or to others. Tr. Tr. p. 183,
11.11-14. This court sustained the objection since there was no compelling argument
to support its relevancy.

Now defendants urge a new basis for admissibility,
2

however that argument was waived by counsel’s failure to present it at trial. Under
F.R.E. 103, the wrong objection is equal to no objection at all. U.S. v. Gomez, 908
F 2d 497 (9th Cir. 1990);U.S. v. LeBlanc, 612 F.2d 1012 (6th Cir. 1980).
Next, the defendants argue that the court’s striking of the testimony related to
the April 30,1994 mental health report was in error and it effected their substantial
right to present evidence that inferred that Poullard instigated the altercation since
the record reflected that Poullard made no mental health complaints the day after the
incident.

This argument has at least two flaws. First, there was absolutely no

evidence presented to support any such inference.

Second, counsel for the

defendants did not argue that the evidence was being offered for this purpose,
instead, counsel offered the evidence to show that the defendants did not have a
duty to call mental health after Poullard threatened to tear down the light. Jan. 18,
2001 Tr. Tr. p. 181, 11.1-11.

For the reasons set forth above, counsel waived

defendants’ right to argue this alleged error.
Defendants argue that the court erred when it struck testimony of Levatino that
Poullard had previously torn down the light arguing that their substantial right.to
present evidence of the perceived danger that Poullard posed to the guards. This
argument is without merit since this is a mis-characterization of the ruling and since
counsel did not object to the ruling, nor offer any argument to support the
admissibility of the testimony. Counsel for the defendants essentially questioned
3

Levatino whether he had beaten PouIIard in the manner Poullard had described.
Levatino responded to the effect that Poullard presented a constant problem.
Poullard objected to the testimony as being unresponsive and the court sustained
the objection, striking the testimony. Counsel for the defendants moved forward with
his questioning without objection or argument and did not seek to introduce this
testimony through direct questioning. Jan. 19, 2001 Tr. Tr. p. 21 II. 19-p. 23, II. 19.
Under F.R.E. Rule 103, that failure amounted to a waiver to argue the error.
Finally, defendants argue that the court erred when it included mental anguish
in the jury charge defining compensatory damages. This charge was given to the
jury without objection by the defendants. The court was not given the opportunity to
take those words out of the charge. Since the erroneous instruction was not brought
to the attention of the court at trial, and there is no indication that the inclusion of
mental anguish in the charge regarding compensatory damages resulted in a
miscarriage of justice, this alleged error does not merit defendants a new trial.
Younis Bros. v. CIGNA Worldwide Insurance Co., 899 F.Supp.1385 (E.D.Pa.
1995); Cruthirds v. RCI Inc., 624 F.2d 632 (5th Cir. 1980).
On motions for new trial, the evidence must be viewed in the light most
favorable to the jury’s verdict and the verdict must be affirmed unless the evidence
points so strongly in favor of the moving party that the court believes that reasonable
minds could not arrive at a contrary conclusion. Dawson v. Wal-mart Stores,
4

*• *

Inc.,978 F.2d 205 (5th Cir. 1992). A motion for new trial should not be granted and
the jury’s finding should be upheld, if the evidence is such that a jury could have
reached a number of different conclusions, all of which would have sufficient
evidentiary support. Id. at 208. Such is the case in the instant situation. This court
does not find that any evidentiary error occurred such that a substantial right of the
defendants was denied.
Defendants argue that this court has the discretion to grant or deny new trial
on the issue of damages alone and this court agrees. Eiland v. Westinghouse
Electric Corp., 58 F.3d 176 (5th Cir. 1995). The jury verdict form has been reviewed
in all respects and this court finds no indication that the jury’s verdict with regard to
the cell incident was a result of passion or prejudice or that it was entirely
disproportionate to the injuries sustained. As such, defendants are not entitled to
new trial with regard to that incident.
With regard to the patrol car incident, however, defendant Lonnie Edmonds
correctly argues that the jury verdict finding excessive force for the patrol car incident
yet awarding no compensatory damages is inconsistent. Taylor v. Green, 868 F.2d
162 (5th Cir. 1989). This court does not find that a new trial is necessary, but instead
holds that a judgment as a matter of law pursuant to Fed.RuIe Civ.Pro. 50, in favor
of Lonnie Edmonds is warranted, there being no evidence of injury to Poullard as a
result of this incident. By definition, a finding of excessive force requires evidence
5

- *•

of some injury.1 The record is devoid of evidence relating any injury as a result of
any action in the patrol car incident.
Accordingly, the motion for new trial and alternatively for judgment as a matter
of law (doc. 265) are hereby DENIED in all respects except as it pertains to the jury’s
finding of excessive force on the part of Lonnie Edmonds for the patrol car incident.
Judgment as a matter of law is GRANTED, directing verdict in favor of Lonnie
Edmonds and against John Poullard, as a result of the patrol car incident.
Baton Rouge, Louisiana, this 27th day of April, 2001.

J£MtS J. BRADY, jyOGE
SI AN A
MIDDLE DISTRICT

1See defendants memorandum at 28-29.
6

UNITED STATES DISTRICT COURT

FILED
U.S. DIST. COURT
MIDDLE DIST. OF LA.

MIDDLE DISTRICT OF LOUISIANA

n| mi -3 Fil U- 14

* i

CIVIL ACTION

JOHN POULLARD
(DOC# 98999)

3!GM...... ..........

try OEP'JiY OLfcHA

NUMBER 94-0777-D-M2

VERSUS
JUDGE BRADY
MAGISTRATE JUDGE NOLAND

JOSEPH TURNER, ET AL.

NOTICE OF APPEAL
Notice is hereby given that Captain Joseph Turner, Lt. Lonnie Edmonds,
Lt. Michael Levatino, and Sgt. Don Thames, defendants in the above named case, hereby
appeal to the United States Court of Appeals for the 5th Circuit from the Judgment
entered on 31 January 2001 (docket no. 256) and the ruling entered on 30 April 2001
(docket no. 295) that denied their “Motion for a New Trial and Alternative Renewed
Motin for Judgment as a Matter of Law”.
Respectfully submitted,
RICHARD P. IEYOUB
ATTORNEY GENERA

DKT. & ENTERED
DATE
NOTICE MATLED TOt
:-A
DATE
BY

ASSIST
Bar Roll #17509

W5W
P CSvh

INITIALS

ui

DOCKET#

